<html>
<title> - FEDERAL BUREAU OF PRISONS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                       FEDERAL BUREAU OF PRISONS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 19, 2013

                               __________

                           Serial No. 113-50

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
82-847                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="98ffe8f7d8fbedebecf0fdf4e8b6fbf7f5b6">[email&#160;protected]</a>  

                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
SPENCER BACHUS, Alabama              ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     JUDY CHU, California
TED POE, Texas                       TED DEUTCH, Florida
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TOM MARINO, Pennsylvania             KAREN BASS, California
TREY GOWDY, South Carolina           CEDRIC RICHMOND, Louisiana
MARK AMODEI, Nevada                  SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

Subcommittee on Crime, Terrorism, Homeland Security, and Investigations

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman

                  LOUIE GOHMERT, Texas, Vice-Chairman

HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
SPENCER BACHUS, Alabama              Virginia
J. RANDY FORBES, Virginia            PEDRO R. PIERLUISI, Puerto Rico
TRENT FRANKS, Arizona                JUDY CHU, California
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TREY GOWDY, South Carolina           KAREN BASS, California
RAUL LABRADOR, Idaho                 CEDRIC RICHMOND, Louisiana

                     Caroline Lynch, Chief Counsel


                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 19, 2013

                                                                   Page

                           OPENING STATEMENTS

The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Chairman, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations.................................................     1
The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Ranking Member, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations.................................................     2
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     4
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary    11

                                WITNESS

The Honorable Charles E. Samuels, Jr., Director, Federal Bureau 
  of Prisons
  Oral Testimony.................................................    12
  Prepared Statement.............................................    15

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................     5
Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................    30
Material submitted by the Honorable Robert C. ``Bobby'' Scott, a 
  Representative in Congress from the State of Virginia, and 
  Ranking Member, Subcommittee on Crime, Terrorism, Homeland 
  Security, and Investigations...................................    50

                                APPENDIX
               Material Submitted for the Hearing Record

Questions for the Record submitted to the Honorable Charles E. 
  Samuels, Jr., Director, Federal Bureau of Prisons..............   114


                       FEDERAL BUREAU OF PRISONS

                              ----------                              


                      THURSDAY, SEPTEMBER 19, 2013

                        House of Representatives

                   Subcommittee on Crime, Terrorism, 
                 Homeland Security, and Investigations

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
room 2141, Rayburn Office Building, the Honorable F. James 
Sensenbrenner, Jr. (Chairman of the Subcommittee) presiding.
    Present: Representatives Sensenbrenner, Goodlatte, Bachus, 
Franks, Scott, Conyers, and Bass.
    Staff present: (Majority) Allison Halataei, Parliamentarian 
& General Counsel; Robert Parmiter, Counsel; Alicia Church, 
Clerk; and (Minority) Ashley McDonald, Counsel.
    Mr. Sensenbrenner. The Subcommittee will come to order.
    And without objection, the Chair will be authorized to 
declare recesses of the Subcommittee at any point.
    The Chair recognizes himself for 5 minutes for an opening 
statement.
    Since the passage of the Sentencing Reform Act of 1984, the 
Bureau of Prisons has experienced exponential growth in its 
prison population. Today the BOP houses 219,196 inmates in 119 
institutions across the country and currently accounts for a 
quarter of the Justice Department's operating budget. If you 
add the offenders in the custody of the Marshals Service, which 
is responsible for pretrial and pre-sentencing detainees, the 
Department spends a full third of its budget housing prisoners.
    The dramatic growth in the BOP's population over the last 3 
decades is of concern to Members on both sides of the aisle. It 
has led to extremely high crowding rates in BOP facilities. 
Today the BOP is operating at 39 percent above capacity across 
the board. The crowding problem is particularly acute in high 
security facilities which house some of the most dangerous 
inmates in the Federal system. High security facilities are 
experiencing a crowding rate of 55 percent. To increase 
available bed space, wardens have resorted to extreme measures 
like triple and quadruple bunking or converting common space 
such as the television room into temporary housing space. As a 
result, inmates may experience crowded bathroom and food 
service facilities and more limited opportunities for 
recreational, vocational, and educational programming, all of 
which can contribute to inmate misconduct.
    It is clear that Congress and the Administration need to 
closely look at the problems associated with the BOP's 
population growth because there is no indication that the tide 
of Federal inmates is ebbing. On the contrary, GAO estimates 
that by 2020, BOP may be responsible for housing nearly a 
quarter of a million inmates eating up more and more taxpayer 
dollars. Clearly, this is an unsustainable trajectory.
    While we all agree that there is a problem, it is less 
clear what the solution should be. Some in Congress and the 
Administration have suggested the answer is to give the inmates 
additional good time credits for not engaging in bad behavior 
while incarcerated. I am concerned, however, that Congress 
simply cannot solve the problem by letting the inmates out 
early. We need to take a hard look at the increasing 
incarceration costs that the BOP faces regardless of an 
increasing prison population. We need to address the issue of 
inmate and prison guard safety as exemplified by the murder of 
Correctional Officer Eric Williams at USP Canaan in 
Pennsylvania earlier this year. And we need to identify proven 
cost-effective programs to reduce recidivism and overcrowding.
    Today's hearing will examine the Bureau of Prisons' policy 
surrounding all these issues and identify systemic problems 
that need to be corrected. I hope to learn more about the 
issues surrounding the cost to construct and operate BOP 
facilities and deliver health care to an aging population and 
rehabilitative programming to those inmates who will benefit 
and to support and maintain a professional, dedicated staff. I 
look forward to hearing from the director on all these 
important topics today.
    And it is now my pleasure to recognize for his opening 
statement the Ranking Member of the Subcommittee, the gentleman 
from Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. I thank you for calling 
the hearing today.
    I welcome Director Samuels to the hearing.
    This hearing comes at a very important time. Today the 
number of Federal prisoners has grown from 25,000 in 1980 to 
almost a quarter of a million now. Imprisoning this many people 
is expensive. The average annual cost for an inmate for low 
security is about $25,000; high security, over $30,000 per 
year. Even if we go through with the sequester, the Bureau of 
Prisons is actually receiving over $6 billion for this fiscal 
year.
    The Federal prisons are overcrowded. The Bureau is 
currently operating at 39 percent its rated capacity with 55 
percent crowding at high security facilities. Overcrowding at 
these levels threatens the safety both of inmates and 
correctional officers and undermines the ability of the Bureau 
to provide programming for inmates.
    Now, the main drivers of prison growth are front-end 
decisions about how long someone goes to prison. Obviously, the 
Bureau cannot control that. But mandatory minimums have a lot 
to do with that, as well as simple-minded slogans like ``three 
strikes and you are out,'' ``the failed war on drugs,'' all of 
which lead to the fact that the United States locks up a higher 
portion of its population than any country on earth, about five 
times the international average.
    I applaud the Attorney General's recent announcement about 
reforms within the Department of Justice, but we need to do a 
lot more if we are going to extend this expansive growth. The 
Bureau cannot control what we send them or how long, but the 
General Accountability Office has identified several programs 
that the BOP can make better use of on its own without 
congressional action to reduce overcrowding. These include 
fully utilizing the residential drug abuse program. The GAO 
found that only 19 percent of inmates who successfully 
completed the program in 2009 to 2011 received the maximum 
reduction available under the Bureau policy, and the average 
sentence reduction was only 8 months. If inmates had received 
the full 12-month reduction in those years, the Bureau would 
have saved over $100 million.
    In addition, the Bureau excluded by policy entire 
categories of inmates from participating in the program. For 
example, inmates whose Federal sentencing guideline was 
increased because a weapon was possessed are excluded from 
participation. Even more money could be saved if all 
statutorily eligible prisoners were allowed to participate.
    Second, the GAO found that the Bureau was not fully 
utilizing the pre-release community corrections. The Second 
Chance Act of 2007 doubled the amount of time from 6 to 12 
months that an inmate could serve in pre-release community 
corrections at the end of the sentence. However, the GAO found 
that in practice inmates serve an average of less than 4 months 
in community corrections. By just increasing home confinement 
by 3 months, the BOP could save over $100 million a year.
    These are actions that the BOP could take now to reduce 
overcrowding and save hundreds of millions of dollars.
    In addition, there are reforms that we in Congress should 
pass to reduce overcrowding. The first and easiest thing we 
could do is to clarify how a good time credit is calculated. 
According to the U.S. Code, prisoners may currently earn 54 
days of good time credit to be applied at the end of each year, 
but based on the way the Bureau calculates the good time, 
prisoners are actually only credited with 47 days each year or 
portion of a year for the sentence imposed. My colleague from 
Michigan, the Ranking Member of the Committee, and I have 
introduced H.R. 2371, the ``Prisoner Incentive Act of 2013,'' a 
legislative fix for that calculation problem. If BOP changed 
its policy, it could save about $40 million a year just through 
that alone.
    Second, my colleague from Utah, Representative Chaffetz, 
and I, along with 12 other cosponsors from both sides of the 
aisle, have introduced H.R. 2656, the ``Public Safety 
Enhancement Act of 2013.'' This would implement a post-
sentencing risk and needs assessment to match inmates with 
evidence-based correctional programs. Inmates can earn credits 
for participating in the programs, credits for time each month 
toward eligibility for an alternative custody arrangement such 
as a halfway house or home confinement or ankle bracelet 
monitoring.
    I hope the bill and the hearing today ignites a 
conversation on broader issues today: reducing overcrowding, 
reducing the amount of time spent in prison, reducing 
recidivism, and reducing costs.
    I am also interested in hearing an update from the director 
on the Federal Prison Industries. FPI operates at no cost to 
the taxpayer, is entirely self-sufficient, never received 
appropriated money from Congress. CBO estimates by eliminating 
FPI and replacing it with other inmate training programs would 
cost about $500 million over 10 years. Research shows that 
inmates in the FPI program are 24 percent less likely to 
recidivate than similar inmates not in the FPI program. But 
despite this, we in Congress are curtailing the FPI program.
    Finally, I would like to hear from the director on many 
other important issues, such as the BOP's plans for prison 
construction, what effect the sequestration is having on 
operations, what educational programs are currently available 
in the prisons, and how a program might be expanded, and the 
use of solitary confinement, as well as inmate access to health 
care.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Sensenbrenner. Thank you very much.
    The Ranking Member of the full Committee, the gentleman 
from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Sensenbrenner.
    I want to start off by quoting Michelle Alexander, who 
recently released a new book called ``The New Jim Crow.'' And 
here is the quotation. Drug offenses alone account for two-
thirds of the rise in the Federal inmate population and more 
than half the rise in State prisoners between 1985 and 2000. 
Approximately a half million people are in prison or jail for a 
drug offense today compared to an estimated 41,000 in 1980, in 
other words, an increase of 1,100 percent. Nothing has 
contributed more to the systematic mass incarceration of people 
of color in the United States than the war on drugs.
    And so this becomes a very important hearing for that 
reason alone and also additionally because we incarcerate more 
people proportionately than any other Nation on the planet. And 
it is in that spirit that we approach this very important 
hearing.
    And I would like to focus on what the Inspector General of 
the Department of Justice said when he testified earlier this 
year before the Committee. Even as the Bureau of Prisons 
receives an ever-increasing share of the Department's scarce 
resources, conditions in the Federal prison system continue to 
decline. And so when you add that to sequestration, we see that 
we are in a very difficult situation.
    This Committee can help people understand the dilemma and 
some of the solutions that we are posing to relieve the stress 
of overcrowding and the continued reduction of the scarce 
resources of the Bureau of Prisons.
    And with that, I will submit the rest of my statement into 
the record.
    Mr. Sensenbrenner. Without objection, it will be included.
    [The prepared statement of Mr. Conyers follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Sensenbrenner. The Chair of the full Committee, the 
gentleman from Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. I appreciate your 
holding this hearing, and I am very pleased to be here today on 
the issue of oversight of the Federal Bureau of Prisons.
    When I became Chairman of the Judiciary Committee in 
January of this year, I said that this Committee would play an 
active role in advancing an agenda to restore economic 
prosperity and fiscal responsibility to America. And I know 
that you and the Ranking Member share that goal. This hearing 
is part of that agenda.
    The Department of Justice currently spends a third of its 
budget housing prisoners, and the Bureau of Prisons population 
continues to grow, consuming even more taxpayer dollars every 
year. Given our current fiscal climate, it is our 
responsibility to ensure that every dollar spent is put to the 
wisest use.
    The growth in the Bureau of Prisons population has also led 
to increased overcrowding in Federal prisons. As Chairman 
Sensenbrenner mentioned, earlier this year Correctional Officer 
Eric Williams was tragically murdered by inmates while 
performing routine lockdown duties. According to reports, 
Officer Williams was assigned to oversee a unit of 
approximately 130 inmates on his own with only keys, handcuffs, 
and a radio to protect himself. In response to Officer 
Williams' tragic death, the Bureau of Prisons approved the use 
of pepper spray by correctional officers for all of the 
Department's high security prisons. This is a positive step 
following a horrible tragedy.
    But Congress and the Justice Department must also ensure 
that the BOP can safely and properly house Federal inmates. 
Both branches of Government should also strive to deliver 
programs to inmates that are proven to reduce recidivism. The 
simple fact is that over 90 percent of Federal inmates will be 
released from prison back into society and will be our 
neighbors and coworkers. We can work to ensure that, upon their 
release, these individuals are able to become productive 
taxpayers rather than more efficient criminals.
    There is a strong support from Members of Congress on both 
sides of the Capitol for current BOP programs that are proven 
to reduce recidivism. For example, inmates who participate in 
BOP's well known program, the Residential Drug Abuse Program, 
are significantly less likely to recidivate and less likely to 
relapse to drug use than non-participants. However, this 
program is currently experiencing long waiting lines. I look 
forward to hearing from the director about how that can be 
addressed and whether the Bureau of Prisons has similar 
recidivism-reducing programs in development.
    Another program that has proven to reduce inmate recidivism 
is Federal Prison Industries, or FPI. FPI provides 
opportunities for training and work experience in textile and 
other forms of manufacturing to Federal inmates. However, the 
FPI has been severely restricted by Congress in recent years. 
In 1988, FPI employed 33 percent of the Federal inmate 
population. It currently employs less than 10 percent of the 
population, which has forced the Bureau of Prisons to close or 
downsize some 50 factories.
    While I support FPI's mission, I also believe FPI must 
think creatively to avoid undue competition with American 
businesses. For example, FPI is currently running a 
repatriation pilot program involving a few different products 
from places like China and South America. This is a positive 
start.
    I look forward to hearing from Director Samuels today about 
the steps the Judiciary Committee can take to address these and 
other important issues in the area of prison management and 
recidivism reduction. It is also my hope that this Committee 
and the Bureau of Prisons can work on new and innovative ways 
to address the Bureau of Prisons crowding and budget issues, 
protect its employees, and provide valuable training to inmates 
in a manner that does not create undue competition with 
American companies.
    Again, I thank the Chairman and yield back.
    Mr. Sensenbrenner. Without objection, all Members' opening 
statements will be placed in the record at this point.
    It is the procedure in this Committee to swear in 
witnesses. So, Mr. Samuels, could you please stand and raise 
your right hand?
    [Witness sworn.]
    Mr. Sensenbrenner. Let the record show the witness answered 
in the affirmative.
    Charles E. Samuels, Jr. was appointed Director of the 
Federal Bureau of Prisons on December 21, 2011. He is 
responsible for oversight and management of all Bureau of 
Prisons institutions and for the safety and security of inmates 
under the agency's jurisdiction. He began working for the 
Bureau in 1988 as a correctional officer and served in many 
capacities rising through the ranks from case manager up to 
warden and eventually was named Senior Deputy Assistant 
Director of the Correctional Programs Division, or CPD for 
short.
    In 2011, Mr. Samuels was selected as Assistant Director of 
CPD where he oversaw all inmate management program functions, 
including intelligence and counterterrorism initiatives, 
security and emergency planning, inmate transportation, case 
management, mental health and religious services, and community 
corrections.
    He received his bachelor of arts degree from the University 
of Alabama and graduated from the Harvard University Executive 
Education Program for Senior Managers in Government.
    Mr. Samuels, without objection, we will include your 
written testimony into the record at this point. We would ask 
that you would summarize it in 5 minutes. You know what the 
green light, the yellow light, and most importantly, the red 
light in front of you means. So please proceed.

 TESTIMONY OF THE HONORABLE CHARLES E. SAMUELS, JR., DIRECTOR, 
                   FEDERAL BUREAU OF PRISONS

    Mr. Samuels. Good morning, Chairman Goodlatte, Chairman 
Sensenbrenner, Ranking Member Conyers, Ranking Member Scott, 
and Members of the Subcommittee. I am pleased to appear before 
you today to discuss the Federal Bureau of Prisons.
    I cannot begin without acknowledging that this past 
February, the Bureau suffered tragic losses with the murders of 
two of our staff. Officer Eric Williams from the United States 
Penitentiary in Canaan, Pennsylvania was stabbed to death by an 
inmate. Lieutenant Osvaldo Albarati was shot and killed while 
driving home from the Metropolitan Detention Center in 
Guaynabo, Puerto Rico. We will always honor the memories of 
these two law enforcement officers, and their loss underscores 
the dangers that Bureau staff face on a daily basis.
    I know we all share a commitment to our Nation's criminal 
justice system. We are proud of the role we play in supporting 
the Department of Justice's public safety efforts, but we 
understand that incarceration is only one aspect of our overall 
mission. I am sure you share my concerns about the increasing 
costs associated with operating the Nation's largest 
correctional system. Those costs make up one-quarter of the DOJ 
budget. We are optimistic the Attorney General's Smart on Crime 
initiative will reduce the Federal population in the years 
ahead, although the extent of the impact is hard to predict at 
this time.
    The Bureau of Prisons is responsible for the incarceration 
of over 219,000 inmates. Our prisons are crowded, averaging 36 
percent more inmates than they were designed to house. We are 
most concerned about the 53 percent crowding at high security 
facilities and 45 percent crowding at our medium security 
facilities.
    I am extremely grateful for the support Congress recently 
provided to activate new facilities in Berlin, New Hampshire; 
Hazelton, West Virginia; Yazoo, Mississippi; and Aliceville, 
Alabama. When fully activated, these facilities with assist 
with the reduced crowding rates by almost 4 percent.
    Reentry is a critical component of public safety. Our 
approach in the Bureau of Prisons is that reentry begins on the 
first day of incarceration. Preparation for release includes 
treatment, education, job skill training, and more that takes 
place throughout the inmate's term.
    Over the past 20 years, there has been a significant 
evolution and expansion of our inmate reentry programming. My 
goal as director is to ensure that every institution provides 
cognitive behavioral therapy programs for the inmates, a 
treatment approach that has proven effective to improve reentry 
outcomes.
    Several of our most significant programs have been proven 
to reduce recidivism. Federal Prison Industries, or FPI, is one 
of our most important programs. FPI participants are 24 percent 
less likely to recidivate than non-participating inmates. While 
FPI reached as many as 33 percent of inmates in the past, it 
currently only employs about 8 percent of the inmates. This 
decline is due to various provisions in Department of Defense 
authorization bills and appropriations bills that have weakened 
FPI's standing in the procurement process. We were recently 
given new authorities to seek repatriated work for FPI, and we 
are working diligently to maximize these opportunities.
    We agree with many experts that inmates must be triaged to 
assess risk and to determine appropriate programming to reduce 
such risk. High risk offenders are our first priority for 
treatment as they pose the greatest public safety risk when 
released from our custody. We continue to provide effective, 
evidence-based, cost-efficient treatment programs to address 
the needs of the inmate population. We have recently begun to 
enhance the tools we use to assess risk and to construct 
appropriate treatment plans.
    The safety of the staff, inmates, and the public are our 
highest priorities. I have made several recent changes to 
Bureau operations that will help us enhance safety and 
security. Let me highlight some of these recent advances.
    We expanded the availability of pepper spray for our staff 
to use in emergency situations at all high security prisons, 
detention centers, and jails. We are developing plans to add an 
additional correctional officer to each high security housing 
unit for evening and weekend shifts using our existing 
resources. We have made significant advances in reviewing and 
reducing our use of restrictive housing, and we are expanding 
residential drug abuse programming by adding 18 new programs to 
bring our total to 81.
    Chairman Goodlatte and Chairman Sensenbrenner, this 
concludes my formal statement. Again, I thank you, Mr. Conyers, 
Mr. Scott, and Members of the Subcommittee, for your continued 
support. The mission of the Bureau of Prisons is challenging. 
By maintaining high levels of security and ensuring inmates are 
actively participating in evidence-based reentry programs, we 
serve and protect society.
    I will be happy to answer any questions.
    [The prepared statement of Mr. Samuels follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Sensenbrenner. Thank you very much, Mr. Samuels.
    The Chair will recognize himself for 5 minutes.
    Mr. Samuels, we heard an awful lot about the percentage of 
inmates that are in prison for drug offenses. What percentage 
of those inmates in there for drug offenses are there for 
possession offenses?
    Mr. Samuels. Approximately 50 percent of the inmates 
incarcerated in the Bureau are incarcerated for drug 
trafficking offenses.
    Mr. Sensenbrenner. You are talking about trafficking rather 
than possession?
    Mr. Samuels. Total number.
    Mr. Sensenbrenner. Total number. I am trying to 
differentiate between those who are there for possession and 
those that are there for trafficking. Do you have that 
information?
    Mr. Samuels. I would have to obtain that information and 
provide it to you for the record.
    Mr. Sensenbrenner. Thank you very much.
    The second question is what percentage of the inmates are 
either repeat or violent offenders.
    Mr. Samuels. Within our population, when you look at the 
individuals who have been released after serving time in the 
Bureau, 80 percent of the inmates who are released do not 
return to the Federal prison system within a 3-year period.
    Mr. Sensenbrenner. And what percentage of the inmates are 
violent offenders?
    Mr. Samuels. Five percent of the inmates incarcerated 
within the Bureau of Prisons are there for violent offenses.
    Mr. Sensenbrenner. Now I want to go back to my first 
question. You say that 80 percent of the people who are 
released are not convicted and re-sentenced within a 3-year of 
period of time. What percentage of those that are in prison are 
repeat offenders? That is the other side of that coin. I am 
talking about in the Federal prisons.
    Mr. Samuels. I will need to provide that for the record.
    Mr. Sensenbrenner. What percentage are immigration 
offenders?
    Mr. Samuels. Eleven percent.
    Mr. Sensenbrenner. And do you have a breakdown of what the 
immigration offenders are actually in prison for? Is it an 
immigration offense or is it an offense that is criminal in 
nature but is committed by someone who also could be convicted 
of an immigration offense?
    Mr. Samuels. I have the total number for the percentage, 
but I would have to gather the information to break it down 
into the specifics that you are requesting.
    Mr. Sensenbrenner. Thank you very much.
    I yield back the balance of my time. I recognize the 
gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Let me follow through on one of the questions that the 
Chairman just asked. You said 80 percent do not return to the 
Federal prison. Do you track whether or not they return to a 
State prison?
    Mr. Samuels. When you look at the overall recidivism rate 
for the Bureau of Prisons, that number is 40 percent.
    Mr. Scott. Forty percent----
    Mr. Samuels. Forty percent recidivate. So the total would 
be 60 percent----
    Mr. Scott. Do not come back. Okay. So 80 percent do not 
come back to the Federal prison, but only 60 percent do not 
come back. Forty percent actually go to either State or 
Federal.
    Mr. Samuels. Yes.
    Mr. Scott. We know from studies that solitary confinement 
causes a deterioration of mental health and actually increases 
recidivism. Is there any evidence that use of solitary 
confinement serves any useful purpose?
    Mr. Samuels. Our practice for solitary confinement, which 
we are actually in the process of having an external evaluation 
done--the National Institute of Corrections has entered into a 
cooperative agreement. We are having corrections professionals 
come in to assess our practices and our policies.
    Mr. Scott. Are you also studying the use of solitary 
confinement with juveniles?
    Mr. Samuels. Could you repeat, sir?
    Mr. Scott. Use of solitary confinement for juveniles. Is 
that part of the evaluation?
    Mr. Samuels. No, sir.
    Mr. Scott. Do you subject juveniles to solitary 
confinement?
    Mr. Samuels. No, sir.
    Mr. Scott. The Prison Rape Elimination Act audit. You are 
undergoing an audit now, as I understand it. Is that right?
    Mr. Samuels. Yes.
    Mr. Scott. What is the current status of those audits?
    Mr. Samuels. We recently underwent the first pre-audit for 
the corrections systems for the entire United States at our 
facility at FCI Gilmer. The audit was completed toward the 
latter part of August. And I have not received the official 
report, but I am looking forward to reviewing the information.
    Mr. Scott. We have received reports that there have been a 
lot of complaints about youths at Lewisburg. Are you familiar 
with these complaints?
    Mr. Samuels. Complaints regarding USP Lewisburg?
    Mr. Scott. Inhumane treatment of young people, use of 
shackles, deplorable conditions, solitary confinement, guards 
promoting cage fighting, other kinds of reports. Can you review 
the reports of complaints at Lewisburg and provide us with your 
response?
    Mr. Samuels. Yes, sir.
    Mr. Scott. Could you comment on the use of compassionate 
release? Are you familiar with the process in that?
    Mr. Samuels. Yes.
    Mr. Scott. The Inspector General made some recommendations. 
What is the status of the Bureau's response to the Inspector 
General report?
    Mr. Samuels. The Bureau--the compassionate program for the 
Bureau, also referred to as reduction in sentence--we have 
embraced all of the recommendations from the Inspector General. 
The program now has expanded the use of compassionate release, 
and I have to this date approved approximately 42 individuals 
to be released under compassionate release. We have also taken 
the position to ensure that there is transparency for the 
entire process. When individuals make a request at the 
institution level, we are monitoring all the requests to ensure 
that for any denials, that we have appropriate justification to 
include those that are being approved.
    Mr. Scott. You mentioned 42. The prior year how many were 
processed?
    Mr. Samuels. 39 were approved by me.
    Mr. Scott. Could you say a word about what you are doing to 
reduce the cost of telephone calls from Federal prisons?
    Mr. Samuels. Yes. Recently the FCC--they have addressed 
issues relative to telephone calls not only for the Bureau of 
Prisons but State corrections as well. The Bureau of Prisons--
for years we have had a very low rate, which our rate has not 
increased in the amount of years we have had it. Right now, for 
direct calls domestically within the country, we have a rate of 
23 cents per minute. We are waiting on the final ruling 
regarding the issue to determine where we go from there with 
any of the caps that have been determined by the FCC for the 
Bureau of Prisons, to include the States.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Samuels, everyone seems to agree that the Bureau of 
Prisons crowding is a problem. Some people here are saying we 
need to let people out of prison to fix it. However, certainly 
there are offenders we can all agree should not be released 
early. Correct?
    Mr. Samuels. I did not hear the question.
    Mr. Goodlatte. That is a question. Do you agree that there 
are prisoners who should not be released early?
    Mr. Samuels. Yes. With our population having approximately 
219,000 inmates, I would state that for certain individuals, 
depending on their offense history and various areas when you 
look at risk factors----
    Mr. Goodlatte. So people with having a history of violence?
    Mr. Samuels. It depends on the circumstances on how they 
are being evaluated.
    Mr. Goodlatte. What about sex offenders who are more likely 
to recidivate than anyone else?
    Mr. Samuels. We would have to assess the risk factors for 
each individual. And the reason I make this statement, with the 
recent initiative with our compassionate release efforts, if an 
individual falls within that category and they are submitting a 
request, we would have to evaluate all of the issues to make--
--
    Mr. Goodlatte. But you would be less likely to release 
somebody with a history of violence.
    Mr. Samuels. If there is a potential threat to the public 
based on the evaluation.
    Mr. Goodlatte. And sex offenders?
    Mr. Samuels. Same. If there are significant concerns 
regarding any----
    Mr. Goodlatte. And gang members?
    Mr. Samuels. The same evaluation would occur.
    Mr. Goodlatte. Your testimony says 75 percent of medium 
security and 90 percent of high security inmates have a history 
of violence. Additionally, you testified that one in four high 
security inmates are gang affiliated. Surely they would not be 
eligible for early release.
    Mr. Samuels. They would be evaluated on a case-by-case 
basis, and if there is any likelihood that the individual would 
have the potential to re-offend, they would not be recommended 
for any type of release.
    Mr. Goodlatte. So which inmates are we mostly talking about 
here? Are we talking about low security offenders, white-collar 
offenders, drug offenders?
    Mr. Samuels. Mr. Chairman, all inmates will be reviewed and 
assessed and the expansion of the compassion release program 
looks at medical and non-medical cases. So if an individual has 
been diagnosed with a terminal illness and they are subjected 
to have a life expectancy of less than 18 months, we would look 
at the individual, review all of the factors to include their 
potential risk to re-offend. And based on that assessment, a 
determination would be made whether to approve or deny the 
request.
    And for the individuals who fall in the category where they 
are not able to take care of themselves, to provide self-care, 
and these are individuals who have a progressive illness or 
they have been subjected to an injury where they are either 100 
percent bed-ridden and/or cannot maintain the basic self-care 
for more than 50 percent of their time, then we would evaluate 
and look at all the circumstances, to include individuals who 
are the primary caregiver for dependents if there is a 
situation due to extraordinary or compelling circumstances that 
we should evaluate. So each individual would be assessed on 
their own individual issues in these.
    Mr. Goodlatte. Do you envision that people with a history 
of violence or sex offenders who have a high recidivism rate or 
gang members would be likely to be primary caregivers?
    Mr. Samuels. If we are able to determine, based on their 
lack of participation in programs within the Bureau and no 
efforts on their part and with our validated risk assessment 
that we have been using for the past 30 years to assess the 
factors associated with misconduct----
    Mr. Goodlatte. I want to get in one more question, so let 
move on since my time is running out.
    What challenges does the Bureau of Prisons face in 
developing new programs that would help reduce recidivism? We 
have heard the RDAP and FPI have both proven to reduce 
recidivism. If Congress were to require the Bureau to implement 
additional recidivism-reducing programs to bring down its 
population, what challenges would you face?
    Mr. Samuels. The challenges the Bureau would face with this 
initiative, which we have been developing cognitive behavior 
therapy programs similar to what we offer with the residential 
drug abuse program by taking various elements to establish 
these types of programs, we have been doing. We have created 
programs in our high security facilities, which we refer to as 
the Challenge Program. We have established a program that we 
call Resolve for female inmates who have been exposed to 
traumatic incidents within their life. We have a staged 
program, sexual offender programs. So we are in the process of 
doing.
    Our biggest challenge is with the growth of the population. 
When you look at the inmate-to-staff ratio, all of the staff 
who work within the Bureau of Prisons are considered 
correctional workers, but to maintain the immediate concern of 
safety and security to protect staff, inmates, and the public, 
sometimes we have to pull these staff to provide coverage. When 
we are put in a situation to maintain at the highest level the 
safety and security, the staff who are assigned the duties to 
carry out these treatment programs are pulled away from those 
duties because they are carrying out the efforts of the 
correctional worker duties. So as long as our population is 
maintained at an acceptable level, we are able to continue to 
provide the necessary programs to give us those reductions 
which overall with the recidivism reduction efforts helps us.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    We welcome you here, Director Samuels. And this is for me 
the beginning of what I hope is a continuing and fruitful 
relationship because the prisons are so important in terms of 
whether they have any beneficial influence on the inmates and 
the procedures going on. I know that sequestration and budget 
cuts have made it very difficult. But I think that your 
philosophy and experience combine to give you a very good 
platform for advocating.
    And I wanted to start off with the Aliceville site for 
women in which I note that 11 of our colleagues in the Senate 
have written you about asking about these changes of 
eliminating the women's site and sending them to very long 
distances away, which we think might be counterproductive.
    Mr. Samuels. Thank you.
    The issue relative to the potential mission change for FCI 
Danbury--I am still working with my staff to finalize the 
outcome of how we are going to proceed with the issues that 
have been raised by the 11 Senators which you made reference 
to. And at some point in the near future, we will be providing 
what we are trying to do.
    But I think it is very, very important that everyone 
understands and knows that I firmly believe in trying to keep 
the inmates as close to their residences for all of the 
concerns and issues associated with making sure that they can 
have family visits and definitely for the individuals who have 
children, the children of incarcerated parents having access to 
their parents. We will continue to do everything possible 
within the resources that we have to make all of those efforts 
be something that is meaningful and doable to the best of our 
abilities.
    Mr. Conyers. Well, I would like to get a copy, if it is 
appropriate, of the response that you send the 11 Members of 
the Senate in this regard because I agree with what you are 
saying.
    Mr. Sensenbrenner. Without objection, when Mr. Conyers gets 
that copy, it will be included in the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Conyers. Thank you, Chairman Sensenbrenner.
    Now, let's turn to what I consider a not so pleasant 
subject of contracting with private prisons in the Federal 
system. I am not a supporter of that policy. And I understand 
that maybe as much as 11 percent of our inmates are in such 
facilities now. Is this necessary and cannot be avoided? Or is 
there some way that we can minimize and lower this number? You 
know, we have solitary confinement and segregated housing, and 
all of these things. When you combine that with private 
prisons, I do not think it helps things at all. What do you say 
to that?
    Mr. Samuels. Congressman Conyers, with our population being 
at 219,000, we actually have 179,000 inmates in Bureau 
facilities. Approximately 42,000 of those inmates are in some 
form of private prisons, which that number is about 30,000, and 
the remaining number, or 12,000, in our residential release 
centers. When you look at the crowding for the Bureau of 
Prisons in our agency-wide crowding of about 36 percent, we 
would be placed in an extreme difficult situation to absorb 
those 30,000 inmates into the existing beds. Our rate of 
capacity for the 179,000 inmates I mentioned--we only have 
126,000 beds. So we do not have the capacity to absorb the 
inmates who are in the private facilities.
    Mr. Sensenbrenner. The gentleman's time has expired.
    Mr. Conyers. Just let me get a yes or no from him on this. 
Do you support limiting the amount of private prisons to the 
maximum extent possible?
    Mr. Sensenbrenner. Yes or no.
    Mr. Samuels. Yes.
    Mr. Sensenbrenner. The gentleman from Alabama, Mr. Bachus.
    Mr. Bachus. Thank you, Mr. Chairman.
    Mr. Samuels, I think a lot of the problems that the Bureau 
of Prisons is experiencing is a failure of the Congress to 
respond to reforming our sentencing laws.
    I do not know whether most Members of Congress realize that 
we have--China I think has four times as many people as the 
United States. Yet, there are fewer people in prison in China 
than in the United States, and we consider China as somewhat of 
a repressive regime.
    We all, I think, know, if you have even paid scant 
attention, that our number of Black prisoners--almost 50 
percent of our prison population is Black. And if you go back 
to 1980, first of all, that was not the case. Since that time, 
our violent crime rate in the country has decreased to a third 
of what it was in 1980, but the number of Black prisoners 
numerically and as a percentage of our total prison population 
has virtually exploded. And you can take about probably half of 
that because of the discrepancies between crack and cocaine.
    I saw this article in the Economist that came about 1 month 
ago. It said that one of the most repressive regimes in the 
world and racist regimes was South Africa during apartheid. 
Yet, our incarceration of Blacks between the ages of 20 and 34 
is almost four times that of South Africa during apartheid. So 
we talk about the conditions under apartheid in South Africa 
and how unfair it was for the Black population. Yet, our 
incarceration rate is actually 3.6 times as much for Blacks 
between the ages of 20 and 34. Now, that is not something that 
you have caused. It is not something that I have caused, but it 
is something that I think we have a responsibility to respond 
to.
    There are two pieces of legislation in the Senate right 
now. Both of them are bipartisan. One is the Justice Safety 
Valve Act by Senators Leahy and Paul, one of the liberal 
Members and one of the conservative Members. Another one is the 
Smarter Sentencing Act of 2013 by Mr. Leahy, Durbin, and Mike 
Lee of Utah. Mike Lee is one of the most conservative Members 
of the Senate.
    Mr. Scott. Will the gentleman yield?
    Mr. Bachus. Yes, I will.
    Mr. Scott. There is an identical bill in this Subcommittee.
    Mr. Bachus. You know, and I did not know that.
    Mr. Scott. And we will be calling on you to cosponsor the 
bill.
    Mr. Bachus. In fact, I plan to do that because I have 
looked at this just this week and talked to two different 
Senators. We had a long conversation.
    It just amazes me. Let me give another statistic that is 
hard to believe. Our prison population in 1940 was 24,000. In 
1950, it was approximately 24,000. In 1960, it was 
approximately 25,000. In 1970, it was back around 24,000. Where 
am I? 1970? In 1980, it was about where it was in 1940. From 
1980 to 2013, it has gone to over 200,000. And as I said, our 
violent crime rate is a third of what it was in 1940. In the 
history of our country, we are sentencing people to longer 
sentences than we ever have. 2008 is when we hit that mark.
    So we talk about hanging people in the wild west and 
intolerance of crime in the late 1700's and the early 1800's. 
But when we send somebody to prison in the last 10 years, we 
send them for longer than we ever have in the country. So it is 
a national disgrace.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentlewoman from California, Ms. Bass.
    Ms. Bass. Well, I first want to thank the gentleman for 
your comments. I really appreciate that and look forward to 
working with you on those issues.
    I wanted to ask you a few questions, Mr. Samuels. One is do 
you know the percentage of inmates who have a history of child 
welfare, have been in the child welfare system?
    Mr. Samuels. I do not have that information.
    Ms. Bass. I would like to follow up with you about that. 
Okay?
    And then also I wanted to talk to you about--I mean, all of 
us are concerned about the numbers of prisoners that we have in 
the Federal system and how do we go about reducing those 
numbers. And given that the drug laws are changing around the 
country, particularly marijuana, I know you said that 50 
percent, I believe, of inmates are there for drug-related 
offenses, but you did not distinguish between possession and 
trafficking. So I would like if you can follow up on that. 
Because if you come from California, for example, and you have 
a marijuana possession or Colorado, States where they have now 
either legalized it completely for recreation use or 
decriminalized it down to medical marijuana, which in 
California it is really legal, should we not look at that in 
terms of people who are languishing in prison for possession 
but the laws have been changed?
    Mr. Samuels. I will respond by stating what the Attorney 
General's initiative with the Smart on Crime initiative is and 
particularly with the low level drug offenses not tied to gangs 
or large scale drug organizations and/or to cartels, that for 
those types of offenses, depending on how the charging 
procedures are going to be assessed, that potentially, I mean, 
it could have some impact on the Bureau's population because 
when you look at the number with 50 percent of our population 
being individuals who are involved in some drug offense, I 
mean, it is pretty significant. As Congressman Bachus stated, 
our population overall, when you go to the 1940's, we were at 
24,000, and in 1980, our population was 26,400. Our staffing at 
that time was 10,000. We had 10,000 staff. So you go from 1980 
to 2013, that is an 832 percent increase.
    Ms. Bass. Right, and we know that is because of drug laws 
that are now being reconsidered. So if we are reconsidering the 
drug laws, we should be reconsidering the people that are 
people that are incarcerated.
    So in that regard, also in terms of the powder to crack and 
the change in law that happened before I got here but I was so 
excited that Members on this Committee got that done, what 
about those inmates? Because isn't there supposed to be an 
evaluation of people who are incarcerated when that changed? So 
do you know the numbers in terms of people that have been 
released because the law was changed? Because I thought it 
could be reconsidered. Couldn't it, Mr. Scott?
    Mr. Scott. There is a Sixth Circuit case where there was a 
three-judge panel that ruled that it could be applied 
retroactively. That has been appealed en banc. And the first 
thing that happens when you go en banc is to vacate the three-
judge panel decision. So there is really nothing pending in 
that decision right now.
    Ms. Bass. I see.
    And then I believe that you said that there are no 
juveniles that are in solitary confinement. I really wanted to 
ask you about that because I know in my State and I know in 
other States we reduced the age in which a juvenile could be 
tried as an adult. And I am sure they did that in other States 
too. But then the problem we got into in California was that 
there was no place to put them and then they were put in 
solitary. So I really wanted to ask you again. Are you sure 
there are no juveniles that are in--maybe they were not----
    Mr. Samuels. To my knowledge, we do not have any juveniles 
who are in restrictive housing. The number is very, very small 
for the number of juveniles that we have within the Bureau. So 
I would double check. I will take this back and I will come 
back to confirm whether or not that is an absolute. But to my 
knowledge, we do not.
    Ms. Bass. Okay.
    And then also I believe in February of this year, the 
Bureau of Prisons was going to undertake a third party audit 
for the use of solitary confinement in general. And I wanted to 
know if you could give me a status of that audit.
    Mr. Samuels. Yes. The National Institute of Corrections--
they have awarded a cooperative agreement to correctional 
professionals to come in to look at the Bureau of Prisons, our 
policies and our procedures. Within the last year, since I 
testified regarding this issue before Chairman Durbin, at that 
time, the Bureau of Prisons had 13,700 inmates in some form of 
restrictive housing. I have now been able to reduce that number 
from 13,700 to approximately 9,800. So we have had a 25 percent 
reduction.
    Ms. Bass. Excellent. And when will the audit be done?
    Mr. Sensenbrenner. The gentlewoman's time has expired.
    The gentleman from Arizona, Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Director Samuels, thank you for being here.
    You know, sometimes it is important for those of us on this 
Committee just to get a sense of the general population ratios. 
Your testimony says 11 percent of inmates in the Bureau of 
Prisons' custody are there for immigration offenses, and that 
is over 24,000 of your 219,000 inmates. And you also testified 
that 26 percent of your inmates, nearly 57,000 inmates, are 
non-U.S. citizens.
    What do you mean by ``immigration offenses''? And could we 
get some kind of a breakdown of what those immigration 
offenders are actually in the prison for?
    Mr. Samuels. Congressman, earlier that question was 
presented. I would need to come back for the record to provide 
the specifics to give the breakdown. This is just a general 
number that captures the entire population.
    Mr. Franks. Okay. Well, I know that a lot is said about 
drug-related offenses. And of course, you have got pure drug 
offenses. But I understand that the drug-related offenses is 
quite high, that most prisoners are in prison on a drug-related 
offense as opposed to someone just there on a drug possession 
offense. What percentage are there on a drug-related offense?
    Mr. Samuels. Again, for the record, I would need to come 
back with the specific details.
    Mr. Franks. All right.
    What do you think as Director of Prisons would be the 
number one thing this Committee could do to reduce the prison 
population without endangering the public?
    Mr. Samuels. Could you repeat, sir?
    Mr. Franks. Yes, sir. What do you think would be the most 
important reform that we could make as a Committee to try to 
help you reduce the prison population without endangering the 
public? What is the number one incongruity here? Where are we 
going wrong?
    Mr. Samuels. I think for the Bureau, which our biggest 
concern is--we obviously are operating under the guidance of 
the Department and for the laws that we have to enforce with 
our mission. We do not control the number of individuals who 
are prosecuted, nor do we control the sentence length. The 
biggest driver of cost in the Bureau of Prisons and the 
challenges that we face are the significant numbers. The 
inmate-to-staff ratio right now is 4.8 to 1. When you look at 
the largest State systems, the inmate-to-staff ratio is 3 to 1. 
And when you break that out and you look at the specifics of 
the correctional officers, that number is 10 to 1. And when you 
look at the States specifically, you are looking at about 5 to 
1.
    If everyone could imagine in our system, because staff are 
considered correctional workers, all staff, it equates to 
having a teacher who is responsible for providing the education 
and also the teacher is responsible for providing the security 
in the classroom. In many other State systems, they have a 
correctional officer and a teacher in the classroom.
    So we have to work with then trying to augment to have a 
balance and maintaining safety and security in our 
institutions. So if we are able to somehow find a way with the 
Smart on Crime initiatives and a lot of the other bills that 
are being introduced to reduce the population without 
jeopardizing the safety and security----
    Mr. Franks. Well, that is my question. I am wondering what 
would you suggest would be a good strategy to accomplish that.
    Mr. Samuels. I think a good strategy for us right now would 
be individuals embracing the Smart on Crime initiatives where 
when you are looking at the low level, you know, drug offenses 
where individuals are not attached to a significant large-scale 
drug operation and/or cartels, that if those numbers start to 
be reduced, it would eventually have some impact on the Bureau 
of Prisons. Now, we would not see any immediate impact. This 
would be based on, I think, the eventual outcome of reducing 
the population in the years to come.
    Mr. Franks. As far as violent crimes, aren't a lot of the 
violent crimes that your prisoners are incarcerated for--aren't 
they also drug-related? A significant percentage?
    Mr. Samuels. In most cases.
    Mr. Franks. Yes, in most cases. So, I mean, I guess that is 
the concern, you know, as to how to protect the public.
    And so last question. If you were here to ask this 
Committee any one thing that you thought would be good for this 
country, given your position, given your particular 
responsibility, what would that be?
    Mr. Samuels. The one thing that I would ask this Committee 
is to consider the men and women who are very dedicated who go 
in and risk their lives every single day for the American 
public. They are working under very challenging circumstances, 
not to say that the Bureau of Prisons is any more important 
than any other Government agency, but with the continued 
growth, which is unsustainable, it puts staff at risk. It puts 
the public at risk, as well as the inmate population. There has 
to be an effort to find a solution to reduce the population.
    Mr. Franks. I thank you, sir, and thank you, Mr. Chairman.
    Mr. Sensenbrenner. The gentleman's time has expired.
    I want to thank you, Mr. Samuels, for testifying today. We 
will include your responses that you promised into the record.
    And before adjourning the hearing, I recognize the 
gentleman from Virginia, Mr. Scott, for a number of unanimous 
consent requests on documents.
    Mr. Scott. Thank you, Mr. Chairman. I ask unanimous consent 
that the following documents be entered into the record: one 
from the ACLU; the other, the GAO report on ways to end the 
waste of millions on unnecessary over-incarceration; a letter 
from several organizations, the Drug Policy Alliance, Families 
Against Mandatory Minimums, the Leadership Conference on Civil 
and Human Rights, the National African American Drug Policy 
Coalition, Open Society Policy Center, Sentencing Project of 
the United Methodist Church Board of Church and Society, and a 
separate letter from the Leadership Conference on Civil and 
Human Rights.
    Mr. Sensenbrenner. Without objection, all of the records 
referred to by the gentleman from Virginia will be included in 
the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                              ATTACHMENT A
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
    Mr. Sensenbrenner. Without objection, all Members will have 
5 legislative days to submit additional written questions for 
the witness or additional materials for the record.
    And without objection, the hearing is adjourned.
    [Whereupon, at 11:02 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Questions for the Record submitted to the Honorable Charles E. Samuels, 
               Jr., Director, Federal Bureau of Prisons*
---------------------------------------------------------------------------
    *The Committee had not received a response to these questions at 
the time this hearing record was finalized and submitted for printing 
on April 2, 2014.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
